Case: 18-10666

Document: 00515373600

Page: 1

Date Filed: 04/06/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED

No. 18-10666
Summary Calendar

April 6, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
LOUIS GENE WILLIAMS
Defendant - Appellant

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 1:16-CV-110

Before BARKSDALE, HAYNES, and ENGELHARDT, Circuit Judges.
PER CURIAM:*
Louis Gene Williams, federal prisoner # 35423-177, contests the district
court’s denial on the merits (and, alternatively, dismissal as time-barred) of
his 28 U.S.C. § 2255 motion, challenging his sentence under the Armed Career
Criminal Act (ACCA), 18 U.S.C. § 924(e), which arose from his 2006 guilty-plea
conviction for being a felon in possession of a firearm. In his counseled § 2255
motion, Williams asserted that, because the residual clause of the ACCA’s

* Pursuant to 5th Cir. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5th Cir.
R. 47.5.4.
Williams v. United States
Petition Appendix

la

Case: 18-10666

Document: 00515373600

Page: 2

Date Filed: 04/06/2020

No. 18-10666
“violent felony” definition was deemed unconstitutional in Johnson v. United
States, 135 S. Ct. 2551 (2015), he no longer had three qualifying violent-felony
convictions to justify his enhanced sentence under the ACCA.

Our court

granted Williams a certificate of appealability on the following two issues:
whether the district court erred in dismissing the § 2255 motion as timebarred; and whether it erred in rejecting his constitutional claims under
Johnson. (For the reasons that follow, we need not reach the time-bar issue.)
The ACCA “imposes a fifteen-year minimum sentence on a defendant
who is convicted of being a felon in possession of a firearm and has three
previous convictions for ‘violent felon [ies]’ or ‘serious drug offense [s]”’. United
States v. Griffin, 946 F.3d 759, 760 (5th Cir. 2020) (alterations in original)
(citing 18 U.S.C. § 924(e)(1)).
The [ACCA] defines “violent felony” as a crime punishable by more
than a year of imprisonment that (1) “has as an element the use,
attempted use, or threatened use of physical force against the
person of another” (the elements clause); (2) is burglary, arson,
extortion, or involves the use of explosives (the enumerated
offenses clause); or (3) “otherwise involves conduct that presents a
serious potential risk of physical injury to another” (the residual
clause).
Id. (citations omitted).
Johnson, however, held the residual clause unconstitutionally vague,
and this rule “retroactively applies to cases on collateral review”. Griffin, 946
F.3d at 760 (citations omitted). But, even assuming the sentencing district
court relied on the now-unconstitutional residual clause in classifying
Williams’ convictions as violent felonies for ACCA purposes, such reliance is
“harmless if [defendant’s] three convictions also satisf[y] the other, still-valid
definitions of‘violent felony’”. Id. at 761.
Williams has been convicted of, among other offenses, four potential
ACCA predicates, which he acknowledged in the factual resume accompanying

2

Williams v. United States
Petition Appendix

2a

Case: 18-10666

Document: 00515373600

Page: 3

Date Filed: 04/06/2020

No. 18-10666
his plea agreement for his 2006 conviction: attempted, murder, in violation of
Texas Penal Code § 19.02(a)(1); aggravated robbery, in violation of Texas Penal
Code § 29.03(a); burglary of a habitation, in violation of Texas Penal Code
§ 30.02(a); and aggravated assault with a deadly weapon, in violation of Texas
Penal Code § 22.02(a)(4) (now codified at Texas Penal Code § 22.02(a)(2)). He
contends, inter alia, that his convictions for aggravated robbery, burglary of a
dwelling, and aggravated assault with a deadly weapon are not violent felonies
within the meaning of the ACCA. (Williams has abandoned, for failure to brief,
any claim that his attempted-murder conviction does not constitute an ACCApredicate offense. See, e.g., Yohey v. Collins, 985 F.2d 222, 224—25 (5th Cir.
1993).)
Because Williams did not raise in district court the rationales he now
asserts in support of these contentions, however, review is only for plain error.
E.g., United States v. Broussard, 669 F.3d 537, 546 (5th Cir. 2012). Under that
standard, Williams must show a forfeited plain error (clear or obvious error,
rather than one subject to reasonable dispute) that affected his substantial
rights. Puckett v. United States, 556 U.S. 129, 135 (2009). If he makes that
showing, we have the discretion to correct such reversible plain error, but
generally should do so only if it “seriously affect[s] the fairness, integrity or
public reputation of judicial proceedings”. Id. (If, however, we applied the less
limited standard of review for errors preserved in district court, the result
would be the same.)
The requisite clear or obvious error is lacking for the conclusions about
the following three convictions. Williams’ convictions for aggravated robbery
and aggravated assault with a deadly weapon constitute violent felonies under
the ACCA’s elements clause, 18 U.S.C. § 924(e)(2)(B)(i). See Griffin, 946 F.3d
at 762 & n.2; United States v. Torres, 923 F.3d 420, 426 (5th Cir. 2019); United

3

Williams v. United States
Petition Appendix

3a

Case: 18-10666

Document: 00515373600

Page: 4

Date Filed: 04/06/2020

No. 18-10666
States v. Burris, 920 F.3d 942, 945—46, 948, 958 (5th Cir. 2019), petition for
cert, filed, (U.S. 3 Oct. 2019) (No. 19-6186). Additionally, his conviction for
burglary of a habitation constitutes a violent felony under the ACCA’s
enumerated-offenses clause, 18 U.S.C. § 924(e)(2)(B)(ii). See United States v.
Herrold, 941 F.3d 173, 175, 177, 182 (5th Cir. 2019) (en banc), petition for cert,
filed, (U.S. 21 Feb. 2020) (No. 19-7731).
AFFIRMED.

(

Williams v. United States
Petition Appendix

4
4a

Case l:16-cv-00110-C Document 8 Filed 04/05/18

Page 1 of 3 PagelD 71

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
LOUIS GENE WILLIAMS,
Movant,
v.
UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
1:16-CV-110-C
CRIMINAL NO.
L06-CR-029-01-C

ORDER
On June 20, 2016, Louis Gene Williams (represented by the Federal Public Defender)
filed his Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct Sentence by a Person
in Federal Custody, seeking relief pursuant to the Supreme Court’s decision in Johnson v. United
States, 135 S. Ct. 2551 (2015). The United States of America timely filed its Response on
August 19, 2016. Williams did not file any reply.
Williams pleaded guilty to being an armed career criminal in possession of a firearm, in
violation of 18 U.S.C. §§ 922(g)(1) and 924(e). On December 7, 2006, he was sentenced under
the Armed Career Criminal Act of 1984 (ACCA) to a 235-month term of imprisonment. He did
not appeal his conviction or sentence. On May 23, 2016, the Court appointed the Federal Public
Defender to review Williams’ case “to determine whether the conviction qualifies for relief under
Johnson ... and, if so, to represent [Williams] in seeking the appropriate relief.” This § 2255
Motion—filed by the Federal Public Defender pursuant to that appointment order—is Williams’
first.

Case l:16-cv-00110-C Document 8 Filed 04/05/18

Page 2 of 3 PagelD 72

Williams pleads that he is entitled to relief under the Supreme Court’s decision in
Johnson v. United States, which held that the “residual clause” of the ACCA is unconstitutionally
vague. 135 S. Ct. 2551 (2015); 18 U.S.C. § 924(e)(2)(B)(ii). Specifically, he contends that he
has “at least two” prior convictions that fall within the residual clause of the ACCA and that his
sentence should now be reduced in light of Johnson" s holding. In Welch v. United States, 136 S.
Ct. 1257 (2016), the Supreme Court held that its decision in Johnson announced anew
substantive rule of constitutional law that applies retroactively in a collateral challenge to an
ACCA residual clause sentence. The United States argues that (1) Williams waived his right to
file any § 2255 Motion in his plea agreement; and (2) even if his Motion were not procedurally
barred, Williams continues to qualify as an armed career criminal because he has four predicate
offenses that fall under the ACCA’s enumerated offenses or “force clause,” and these portions of
the statute were not invalidated by Johnson.
The Court need not address the United States’ waiver argument because it finds the
alternative argument to be a compelling reason for denying the Motion. Williams was sentenced
under the ACCA, but the Court is of the opinion that Williams has failed to show that he was
sentenced under the residual clause of the ACCA. For the reasons stated in Part 2 of the United
States’ Response, the Court finds that Williams continues to qualify for an enhanced ACCA
sentence even following the Supreme Court’s holding concerning the residual clause in Johnson.
Finally, The Court is of the opinion that—because Johnson does not directly apply—Williams’
motion is otherwise time-barred because it was filed more than one year after the Court’s
judgment became final. 28 U.S.C. § 2255(f)(1).

2

Case l:16-cv-00110-C Document 8 Filed 04/05/18 Page 3 of 3 PagelD 73

The Court has carefully considered Williams’ Motion, the United States’ Response, and
the relevant records, and is of the opinion that Williams’ Motion Under 28 U.S.C. § 2255 to
Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody should be DENIED and
DISMISSED with prejudice for the reasons stated herein, as well as those more thoroughly set
forth in Part 2 of the United States’ thorough and well-drafted Response.1
All relief not expressly granted is DENIED.
Pursuant to Rule 22 of the Federal Rules of Appellate Procedure and 28 U.S.C. § 22530,
this Court finds that a certificate of appealability should be denied. For the reasons set forth
herein, Williams has failed to show that a reasonable jurist would find (1) this Court’s
“assessment of the constitutional claims debatable or wrong” or (2) “it debatable whether the
petition states a valid claim of the denial of a constitutional right” and “debatable whether [this
Court] was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
SO ORDERED this

/rti

_day of April, 2018.

D STATES DISTRACT JUDGE

‘The Court need not decide the waiver issue in light of the United States’ compelling
alternative argument. Therefore, the Court does not adopt the reasoning in Part 1 of the United
States’ Response for the purposes of this Order.
3

;

AO 245 S (Rev. 1/01) Sheet 1 - Judgment in a Criminal Case

Case i:U6-cr-uuuzy-c-BL Document 3U Hieai2/U//Ub

®mte& States? ©tetrict € ourt
Northern District of Texas
Abilene Division

FILED

TEXAS

HP - - 7 2006

CLERK, U.S. DISTRICT COURT
; By

UNITED STATES OF AMERICA

Deputy

Case Number 1:06-CR-029-01 -C
USM No. 35423-177

v.
•,v •-

LOUIS GENE WILLIAMS
Defendant.

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1,1987)
The defendant, LOUIS GENE WILLIAMS, was represented by Shery Kime-Goodwin.
On motion of the United States, the court has dismissed the remaining counts of the indictment as to this defendant.
The defendant pleaded guilty to count 1 ofthe indictment filed on 05/10/2006. Accordingly, the court has adjudicated
that the defendant is guilty of the following offenses:
Count
Number
Title & Section
Date of Offense
Nature of Offense
18 USC § 922(g)(1)
[Penalty found in
18 USC § 924(e)]

12/23/2005

Armed Career Criminal in
Possession of a Firearm

1

As pronounced on 12/07/2006, the defendant is sentenced as provided in pages 1 through 4 of this Judgment. The
sentence is imposed pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant shall pay to the United States a special assessment of S100.00, for count 1, which shall
be due immediately. Said special assessment shall be made to the Clerk, U.S. District Court.
It is further ordered that the defendant shall notify the United States Attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
Judgment are fully paid. If ordered to pay restitution, the defendant shall notify the court and United States attorney of any
material change in the defendant’s economic circumstances.
Signed this the

7th

day of December, 2006.

!
SAMR. CUMMINGS
HfED STATES DISTRICT COURT /

18-10666.162

Williams v. United States
Petition Appendix

5a

AO 245 s rRgy^A^lVS-rgnt61 Document 30 Filed 12/07/06

Page 2 of 4 PagelD 97

Judgment—Page 2 of 4

Defendant: LOUIS GENE WIT I .TAMS
Case Number: l:06-CR-029-01-C

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned
for a term of 235 months with this term of imprisonment to run consecutive with any sentence imposed in Case
No. 3239 from the 32nd District Court of Fisher County, Roby, Texas.
The defendant shall remain in custody pending service of sentence.

RETURN
I have executed this Judgment as follows:

Defendant delivered on

to

at

with a certified copy of this Judgment.

United States Marshal
By
Deputy Marshal

18-10666.163

Williams v. United States
Petition Appendix

6a

DeffendantfLOUBuENEWUlSMS
Case Number: l:06-CR-029-01-C

umcnt 30~ riled 12/07/00

Puyu 3

4Ju5grtlen&-^age 3 of 4

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 5 years.
The defendant shall report to the probation office in the district to which the defendant is released within 72 hours of
release from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, .state, or local crime.
The defendant shall not illegally possess a controlled substance.
For offenses committed on or after September 13, 1994:
The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall submit to one drug
test within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as directed by the probation
officer.
□ The above drug testing condition is suspended based on the court's determination that the defendant poses a low risk of future
substance abuse.
H The defendant shall not possess a firearm, destructive device or any other dangerous weapon.
Ifthis judgment imposes a fine or a restitution obligation, it shall be a condition of supervised release that the defendant
pay any such fine or restitution that remains unpaid at the commencement of the term of supervised release in accordance with
the Fine and Restitution sheet of the judgment.
The defendant shall comply with the standard conditions that have been adopted by this court (set forth below). The
defendant shall also comply with the additional conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
1)
2)
3)
4)
5)
6)
7)
8)
9)
10)
11)
12)
13)

The defendant shall not leave the judicial district without the permission of the court or probation officer.
The defendant shall report to the probation officer as directed by the court or probation officer and shall submit a truthful
and complete written report within the first five days of each month.
The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer.
The defendant shall support his or her dependents and meet other family responsibilities.
The defendant shall work regularly at a lawful occupation unless excused by the probation officer for schooling, training,
or other acceptable reasons.
The defendant shall notify the probation officer at least ten days prior to any change in residence or employment.
The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer
any controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician.
The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered.
The defendant shall not associate with any persons engaged in criminal activity, and shall not associate with any person
convicted of a felony unless granted permission to do so by the probation officer.
The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit
confiscation of any contraband observed in plain view by the probation officer.
The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law
enforcement officer.
The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the court.
As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the
defendant's criminal record or personal history or characteristics, and shall permit the probation officer to make such
notifications and to confirm the defendant's compliance with such notification requirement.
18-10666.164

Williams v. United States
Petition Appendix

7a

Case l:06-cr-00029-C-BL Document 30 Filed 12/07/06

AO 245 S (Rev. 01/01) Sheet 3a - Supervised Release

Page 4 of 4 PagelD 99
Judgment—Page 4 of 4

Defendant: LOUIS GENE WILLIAMS
Case Number: l:06-CR-029-01-C
SPECIAL CONDITIONS OF SUPERVISION
While the defendant is on supervised release pursuant to this Judgment:
1.

The defendant shall participate in aprogram (inpatient and/or outpatient) approved by the U.S. Probation Office
for treatment of narcotic, drug, or alcohol dependency, which will include testing for the detection of substance
use or abuse. The defendant shall abstain from the use of alcohol and/or all other intoxicants during and after
completion of treatment. The defendant shall contribute to the costs of services rendered (copayment) at a rate
of at least $10.00 per month.

2.

The defendant shall cooperate in the collection ofDNA as directed by the U.S. Probation Officer, as authorized
by the Justice for All Act of 2004.

18-10666.165

Williams v. United States
Petition Appendix

8a

Case l:06-cr-00029-C-BL Document 33 Filed 06/20/16

Page 1 of 10 PagelD 112

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS

MOTION UNDER 28 U.S.C. SECTION 2255,
TO VACATE, SET ASIDE, OR CORRECT SENTENCE BY A
PER SON IN FF.DF.R AT. Cl JSTODY

UNITED STATES OF AMERICA

Florence High USP
PLACE OF CONFINEMENT

vs.

35423-177
PRISONER ID NUMBER

LOUIS GENE WILLIAMS
MOVANT (full name of movant)

1:06-cr-00029-C-BL-1
CRIMINAL CASE NUMBER

(If a movant has a sentence to be served in the future under a federal judgment which he wishes to attack, he should
file a motion in the federal court which entered the judgment.)

INSTRUCTIONS - READ CAREFULLY
1.

This motion must be legibly handwritten or typewritten, and signed by the movant under penalty of
perjury. Any false statement of a material fact may serve as the basis for prosecution and conviction for
perjury. All questions must be answered concisely in the proper space on the form.

2.

Additional pages are not permitted except with respect to the facts which you rely upon to support your
grounds for relief. No citation of authorities needs to be furnished. If briefs or arguments are submitted,
they should be submitted in the form of a separate memorandum.

3.

Upon receipt, your motion will be filed if it is in proper order. No fee is required with this motion.

18-10666.168

Williams v. United States
Petition Appendix

9a

Case l:06-cr-00029-C-BL Document 33 Filed 06/20/16

Page 2 of 10 PagelD l®|e 2 of 10

4.

If you do not have the necessary funds for transcripts, counsel, appeal, and other costs connected with a
motion of this type, you may request permission to proceed in forma pauperis, in which event you must
execute the declaration provided with this motion, setting forth information establishing your
inability to prepay the fees and costs or give security therefor. If you wish to proceed in forma
pauperis, you must have an authorized officer at the penal institution complete the certificate as to the
amount of money and securities on deposit to your credit in any account in the institution.

5.

Only judgments entered by one court may be challenged in a single motion. If you seek to challenge
judgments entered by different judges or divisions either in the same district or in different districts,
you must file separate motions as to each such judgment.

6.

Your attention is directed to the fact that you must include all grounds for relief and all facts supporting
such grounds for relief in the motion you file seeking relief from any judgment of conviction.

7.

When the motion is fully completed, the original and two copies must be mailed to the Clerk of the
United States District Court for the Northern District of Texas at the appropriate divisional office
whose address is:

Abilene Division
P.O. Box 1218
Abilene, TX 79604

Amarillo Division
205 E. 5th St, Rm 133
Amarillo, TX 79101

Lubbock Division
1205 Texas Ave., Rm 209
Lubbock, TX 79401

8.

Dallas Division
1100 Commerce, Rm 1452
Dallas, TX 75242

San Angelo Division
33 East Twohig St, Rm 202
San Angelo, TX 76903

Fort Worth Division
501 W. 10th St, Rm 310
Fort Worth, TX 76102

Wichita Falls Division
P.O. Box 1234
Wichita Falls, TX 76307

Motions which do not conform to these instructions will be returned with a notation as to the deficiency.

18-10666.169

Williams v. United States
Petition Appendix

10a

Case l:06-cr-00029-C-BL Document 33 Filed 06/20/16

Page 3 of 10 PagelD 119^3 of 10

MOTION
1. Name and location of court that entered the judgment of conviction you are challenging:
U.S. District Court, Northern District of Texas, Abilene Division

2. Date of the judgment of conviction:
12/07/2006

3. Length of sentence:

235 months imprisonment, 5 years supervised release

4. Nature of offense involved (all counts):
Armed Career Criminal in Possession of a Firearm in violation of 18 U.S.C. § 922(g)(1) with the penalty found at 18
U.S.C. § 924(e).

5. (a) What was your plea? (Check one)
Not guilty Q

Guilty [/]

Nolo contendere (no contest) Q

(b) If you entered a guilty plea to one count or indictment, and a not guilty plea to another count or
or indictment, what did you plead guilty to and what did you plead not guilty to?______________

6. If you went to trial, what kind of trial did you have? (Check one)
7. Did you testify at the trial? (Check one)
8. Did you appeal from the judgment of conviction? (Check one)
9. If you did appeal, answer the following:

Jury □
Yes
Yes

□
□

Judge Only Q

No

□

No

\7\

Name of Court:
Result:
Date of result:

18-10666.170
Williams v. United States
Petition Appendix

11a

Case l:06-cr-00029-C-BL

Document 33 Filed 06/20/16

Page 4 of 10

PagelD HBage4of 10

10. Other than a direct appeal from the judgment of conviction and sentence, have you previously filed any
petitions, applications, or motions with respect to this judgment in any federal court?
YesO

No [7]

11. If your answer to 10 was "Yes" give the following information:
Name of Court:
Nature of proceeding:

l

Grounds raised:

Did you receive an evidentiary hearing on your petition, application or motion?
Yes □
No Q
Result:
Date of result:

As to any second petition, application or motion, give the same information:
Name of Court:
Nature of proceeding:

Grounds raised:

Did you receive an evidentiary hearing on your petition, application or motion?
YesQ
No □
Result:
Date of result:
18-10666.171

Williams v. United States
Petition Appendix

12a

Case l:06-cr-00029-C-BL Document 33 Filed 06/20/16

Page 5 of 10 PagelD 116age 5 of 10

As to any third petition, application or motion, give the same information:
Name of Court:
Nature of proceeding:

Grounds raised:

Did you receive an evidentiary hearing on your petition, application or motion?
Yes\Z\
No I I
Result:
Date of result:

Did you appeal to an appellate federal court having jurisdiction, the result of action taken on any petition,
application or motion?
First petition, etc.
Second petition, etc.
Third petition, etc.

Yes □
Yes □
Yes

No □
No □
No □

If you did not appeal from the adverse action on any petition, application or motion, explain briefly why
you did not:_________________________________________________________________________

18-10666.172

Williams v. United States
Petition Appendix

13a

Case l:06-cr-00029-C-BL Document 33 Filed 06/20/16

Page 6 of 10 PagelD linage 6 of io

12. State concisely every ground on which you claim that you are being held unlawfully. Summarize briefly
the facts supporting each ground. If necessary, you may attach pages stating additional grounds and facts
supporting same.
CAUTION: If you fail to set forth all grounds in this motion, you may be barred from presenting
additional grounds at a later date.
For your information, the following is a list of the most frequently raised grounds for relief in these
proceedings. Each statement preceded by a letter constitutes a separate ground for possible relief. You may
raise any grounds which you may have other than those listed. However, you should raise in this petition all
available grounds (relating to this conviction) on which you based your allegations that you are being held
in custody unlawfully.
DO NOT CHECK ANY OF THESE LISTED GROUNDS. If you select one or more of these grounds for
relief, you must allege facts. The motion will be returned to you if you merely check (a) through (j) or any
of these grounds.
(a)

Conviction obtained by plea of guilty which was unlawfully induced or not made
voluntarily or with understanding of the nature of the charge and the consequences of the plea.

(b)

Conviction obtained by use of coerced confession.

(c)

Conviction obtained by use of evidence gained pursuant to an unconstitutional
search and seizure.

(d)

Conviction obtained by use of evidence obtained pursuant to an unlawful arrest.

(e)

Conviction obtained by a violation of the privilege against self-incrimination.

(f)

Conviction obtained by the unconstitutional failure of the prosecution to disclose to the
defendant evidence favorable to the defendant.

(g)

Conviction obtained by a violation of the protection against double jeopardy.

(h)

Conviction obtained by action of a grand or petit jury which was unconstitutionally
selected and impaneled.

(i)

Denial of effective assistance of counsel.

0)

Denial of right to appeal.

18-10666.173

Williams v. United States
Petition Appendix

14a

Case l:06-cr-00029-C-BL Document 33 Filed 06/20/16
A.

Page 7 of 10 PagelD 118age7of 10

Ground One:
After Johnson v. United States, 135 S. Ct. 2551 (2015) and Welch v. United States, 136 S. Ct. 1257 (2016),
Defendant does not have three or more prior felony convictions that are violent felonies or serious drug
offenses.

Supporting FACTS (tell your story briefly without citing cases or law):
Defendant has four prior convictions the Government claimed were violent felonies: (1) burglary of a
habitation; (2) aggravated robbery; (3) attempted murder; and (4) aggravated assault with a deadly weapon.
At least two of these offenses fall within the residual clause of the Armed Career Criminal Act.

B.

Ground Two:
After Johnson v. United States, 135 S. Ct. 2551 (2015) and Welch v. United States, 136 S. Ct. 1257 (2016),
Defendant's sentence is above the statutory maximum.
j
Supporting FACTS (tell your story briefly without citing cases or law):
Defendant was sentenced to 235 months imprisonment. The maximum term of imprisonment without the
Armed Career Criminal Act enhancement for Defendant's instant offense is 120 months.

C.

Ground Three:

Supporting FACTS (tell your story briefly without citing cases or law):

18-10666.174

Williams v. United States
Petition Appendix

15a

Case l:06-cr-00029-C-BL Document 33 Filed 06/20/16
D.

Page 8 of 10 PagelD llgage 8 of to

Ground Four:

Supporting FACTS (tell your story briefly without citing cases or law):

13. If any of the grounds listed in 12A, B, C, and D were not previously presented, state briefly what grounds
were not so presented, and give your reasons for not presenting them:_______________________________
The vagueness of the residual clause was not available to Defendant prior to the Supreme Court's decisions in Johnson
v. United States and Welch v. United States.

14. Do you have any petition or appeal now pending in any court as to the judgment under attack?
Yes
No [7]
15. Give the name and address, if known, of each attorney who represented you in the following stages
of the judgment attacked herein:
(a) At preliminary hearing:

18-10666.175

Williams v. United. States
Petition Appendix

16a

Case l:06-cr-00029-C-BL Document 33 Filed 06/20/16

Page 9 of 10 PagelD 120age9of 10

(b) At arraignment and plea:
Shery Kime-Goodwin
Office of the Federal Public Defender N.D.TX
1205 Texas Ave., Room 507
Lubbock, TX 79401

(c) At trial:

(d) At sentencing:
Shery Kime-Goodwin
Office of the Federal Public Defender N.D.TX
1205 Texas Ave., Room 507
Lubbock, TX 79401

(e) On appeal

(f) In any post-conviction proceeding:
Brandon E. Beck
Office of the Federal Public Defender N.D.TX
1205 Texas Ave., Room 507
Lubbock, TX 79401

(g) On appeal from any adverse ruling in a post-conviction proceeding:

18-10666.176

Williams v. United States
Petition Appendix

17a

Case l:06-cr-00029-C-BL Document 33 Filed 06/20/16

Page 10 of 10 PagelD 12fcge lOof to

16. Were you sentenced on more than one count of an indictment, or on more than one indictment, in the
same court and at approximately the same time?

Yes □

No 0

17. Do you have any future sentence to serve after you complete the sentence imposed by the judgment
under attack?

Yes □

No 0

(a) If so, give name and location of court which imposed sentence to be served in the future:

(b) And give date and length of sentence to be served in the future:

(c) Have you filed, or do you contemplate filing, any petition attacking the judgment which imposed
the sentence to be served in the future?

Yes □

No 0

Wherefore, movant prays that the Court grant petitioner relief to which he may be entitled in this
proceeding.
/s/ Brandon Beck
Signature
Federal Public Defender N.D. Texas
Firm Name (if any)
1205 Texas Ave., Room 507
Address
Lubbock, TX 79401
City, State & Zip Code
(806) 472-7236
Telephone (including area code)
I declare (or certify, verify, or state) under penalty of perjury that the foregoing is true and correct.
(date).
Executed on 6/20/2016
/s/ Brandon Beck o/b/o Louis Gene Williams
Signature of Movant
18-10666.177

Williams v. United. States
Petition Appendix

18a

